 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




       MEDICAL NECESSITY
OF MEDICARE AMBULANCE SERVICES




                    JUNE GIBBS BROWN
                     Inspector General

                      DECEMBER 1998
                       OEI-09-95-00412
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's San Francisco Regional Office prepared this report under the direction of Kaye D. Kidwell,
Regional Inspector General, and Paul A. Gottlober, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                  HEADQUARTERS

Deborah Harvey, Project Leader
                         Tricia Davis, Program Specialist

Robert Gibbons
                                         Alan Levine

Donald Loeb
                                            Linda Moscoe

Thomas Purvis
                                          Brian Ritchie

                                                        Barbara Tedesco

                                                        Stuart Wright


To obtain copies of this report, please call the San Francisco Regional Office at 415-437-7900. Reports
are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                          EXECUTIVE SUMMARY


PURPOSE
         The purpose of this inspection was to assess the medical necessity of a sample of Medicare
         ambulance services that did not result in hospital or nursing home admissions or emergency
         room care.

BACKGROUND

         Medicare pays for medically necessary ambulance services when other methods of
         transportation would endanger the beneficiary's health. Medicare reimbursement for
         ambulance services has increased substantially over the last decade from $602 million to
         almost $2.1 billion.

         We examined the Health Care Financing Administration’s (HCFA) 1 percent sample of all
         ambulance claims submitted and paid by Medicare carriers from January through June
         1996. We divided the 1 percent sample into groups based on where the ambulance supplier
         transported the patient, and we reviewed the associated claims for other significant services
         on the same date of service that may explain the medical necessity of the transport. Of
         these, we identified a group of ambulance claims that did not result in hospital or nursing
         home admissions or emergency room care on the same date of service. This group,
         hereafter called Group 7, comprised 6.3 percent of all ambulance services. We then
         randomly selected 30 beneficiaries from Group 7 and collected the medical records for all
         services rendered on the same date as the ambulance transport. Staff at two Medicare
         carriers completed the medical review and assessed whether (1) the transport and
         associated services were medically necessary and (2) the level of service was appropriate to
         the patient’s condition.

FINDINGS

Two-thirds of ambulance services in Group 7 were not medically necessary

         Twenty of the 30 sampled cases were not medically necessary because alternative
         transportation would not have endangered the patient’s health. Of the 20 unnecessary
         cases, 70 percent were for nonemergency services such as routine transports for outpatient
         diagnostic tests or transports between doctors’ offices and nursing homes.

         We recognize that the 30-case sample is small, but with such a high percentage of
         unnecessary services, the sample size is sufficient to show that more than half of the
         services in this group are medically unnecessary at the 95 percent confidence level.

Medicare Ambulance Services--Medical Necessity     1                                      OEI-09-95-00412
Medicare allows approximately $104 million each year for medically unnecessary
Group 7 ambulance services

         Based on the sample, we estimate that approximately 70 percent of the allowed
         reimbursement was for ambulance services that did not result in hospital or nursing home
         admissions or emergency room care and for which an alternate, less costly means of
         transportation would have been more appropriate.

RECOMMENDATION
The HCFA should develop a prepayment edit to verify the medical necessity of
ambulance claims that are not associated with hospital or nursing home
admissions or emergency room care

         The Office of Inspector General is aware that HCFA plans to work with the ambulance
         industry and other affected parties to establish a negotiated fee schedule effective
         January 1, 2000. This recommendation would provide a solution for one group of
         ambulance services until HCFA and the industry can better address issues of medical
         necessity, including clear and consistent definitions.

AGENCY COMMENTS

         We received comments on the draft report from HCFA. The HCFA concurred with the
         need for medical review of ambulance claims that are not associated with hospital or
         nursing home admissions or emergency room care. However, due to HCFA’s efforts to
         ensure that Medicare payment systems are renovated before January 1, 2000, the agency
         does not believe that it can implement a prepayment edit prior to implementation of the
         major overhaul of ambulance payment policies required by The Balanced Budget Act of
         1997. In the interim, HCFA will ask its Medicare carriers to review ambulance data and
         decide whether edits accompanied by local medical review policies or focused medical
         review of potential aberrant suppliers are appropriate.

OFFICE OF INSPECTOR GENERAL RESPONSE

         The Office of Inspector General appreciates that HCFA is undertaking a massive effort to
         ensure that all health care payment systems are fully and correctly operational before
         January 1, 2000. We suggest that HCFA take whatever action it can now consistent with
         available resources and also include the issue identified in this report on their agenda during
         negotiations on the ambulance fee schedule.

         We also made changes based on HCFA’s technical comments. The full text of HCFA’s
         comments appears in appendix C.




Medicare Ambulance Services--Medical Necessity      2                                      OEI-09-95-00412
                              TABLE OF CONTENTS

                                                                                                                                PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Two-thirds medically unnecessary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          High cost of unnecessary services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


OFFICE OF INSPECTOR GENERAL RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          A: Proportion of medically unnecessary services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          B: Cost estimate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


          C: Agency comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18





Medicare Ambulance Services--Medical Necessity                      3                                                   OEI-09-95-00412
                                     INTRODUCTION

PURPOSE

         The purpose of this inspection was to assess the medical necessity of a sample of Medicare
         ambulance services that did not result in hospital or nursing home admissions or emergency
         room care.

BACKGROUND

Medicare Coverage and Reimbursement of Ambulance Services

         Medicare pays for ambulance services when "the use of other methods of transportation is
         contraindicated by the individual's condition, but only to the extent provided in
         regulations."1 Health Care Financing Administration (HCFA) regulations state that
         ambulance services are covered only if other forms of transportation would endanger the
         beneficiary's health. Usually, the patients are not ambulatory; that is, they are bedridden.
         Medicare does not cover other forms of transportation, such as a wheelchair or stretcher
         van, that could transport patients who do not require ambulance services.

         Medicare beneficiaries may receive medically necessary ambulance services while they are
         in the hospital under Part A coverage. For example, a bedridden patient may be
         transported from one hospital to another for specialized treatments, such as radiology
         imaging or chemotherapy services. The ambulance supplier is reimbursed by the first
         hospital because payment for these services is included in the hospital's prospective
         payment for the patient's stay.

         Part B covers ambulance services when Part A coverage is unavailable and the following
         three criteria are met:

                   1.	       The vehicle and personnel providing the service meet certain quality and
                             crew size requirements;

                   2.        Other methods of transportation would endanger the patient’s health; and

                   3.	       The ambulance trip, as a general rule, stays within certain distance and
                             destination limitations.

         The cost of Medicare ambulance services has increased substantially over the last decade.


     1
      The Social Security Act, Section 1861(s)(7).

Medicare Ambulance Services--Medical Necessity         4                                      OEI-09-95-00412
         Reimbursement more than tripled between 1987 and 1996 from $602 million to almost
         $2.1 billion. To address the increases, HCFA implemented new codes in 1995 that
         instructed Medicare carriers to assign one of four billing methods to ambulance suppliers in
         their jurisdictions. The four methods differ by the degree to which suppliers can bill
         separately for their various charges including base rate, mileage, and supplies. Currently,
         suppliers bill with codes that are based on the service status (emergency or
         nonemergency), the level of service (basic or advanced life support), and the billing system
         (all-inclusive rate or base rate, mileage, and supplies billed separately).

Medical Necessity of Ambulance Services

         Medicare criteria state that ambulance services must be reasonable for the treatment of the

         illness or injury involved. Other criteria may include, but are not limited to:


           <       emergency situations, such as accidents, injury, or acute illness;

           <       the need to restrain the patient;

           <       an unconscious patient;

           <       the instability of the patient’s condition during transport;

           <       sustained acute stroke or heart attack; or

           <       severe brain hemorrhages.


         Current HCFA guidelines do not define clearly the term "medical necessity." Over the

         years, HCFA has allowed the Medicare contractors to interpret the term based on the

         medical practices of the local community. Therefore, definitions may differ among the 25

         Part B Medicare carriers who process ambulance claims. An ambulance claim that is

         denied by one carrier might be paid by another.


Previous Office of Inspector General Work on Medicare Ambulance Services

         The Office of Inspector General (OIG) has released several reports about the medical
         necessity of ambulance services. In 1992 and 1994, the OIG found that advanced life
         support ambulances were used routinely for nonemergency trips, when, based on patients'
         medical conditions, basic life support ambulances could have met their transportation
         needs.2 Furthermore, Medicare’s allowance for advanced life support ambulance services
         had almost tripled in 4 years.3 Other OIG reviews of ambulance services to kidney dialysis
         patients found medically unnecessary transports and significant variances in payments to




     2
    Office of Inspector General, Review of Medical Necessity for Ambulance Services, October 1992
 (A-01-91-00513).
     3
       , Follow-Up to Review of Medical Necessity for Ambulance Services, June 1995
 (A-01-94-00528).

Medicare Ambulance Services--Medical Necessity        5                                  OEI-09-95-00412
         suppliers within the same geographical areas.4

         Recent reports noted that (1) the current Medicare payment system “lacks common
         sense,”5 (2) Medicare ambulance costs and services are skyrocketing, and (3) while all
         States regulate ambulance services, less than half mandate levels of service and only one
         State requires advanced life support.6 The OIG continued to recommend that HCFA base
         reimbursement on the patient’s medical condition rather than the type of vehicle and
         personnel used.

Proposed Changes for Medicare Ambulance Services

         The HCFA released a proposed regulation in June 1997 to revise the Medicare guidelines
         and reimbursement for ground ambulance services (air services were excluded). The
         proposed regulation would base reimbursement primarily on services that are medically
         necessary for the beneficiary's condition rather than the type of vehicle and personnel used.
         Several new provisions, such as requiring suppliers to obtain written physician certification
         for scheduled nonemergency ambulance transports, were included.

         After HCFA released the proposed regulation, President Clinton signed The Balanced
         Budget Act of 1997. The Act includes several provisions for ambulance services. Major
         provisions:

           <	      mandate that HCFA work with the industry to establish a negotiated fee schedule
                   effective January 1, 2000;

           <	      restrict Medicare increases to the Consumer Price Index minus 1 percent for 3
                   years; and

           <	      authorize three demonstration projects with local governments to study alternative
                   reimbursement methods for ambulance services.

         In March 1998, some members of Congress were concerned that various sections of
         HCFA’s proposed regulation overlapped with ambulance payment issues in The Balanced
         Budget Act. They then urged HCFA to incorporate these sections into the negotiations.
         The HCFA will start negotiations with the ambulance industry and other affected parties
         before the end of 1998.


     4
        , Ambulance Services for Medicare End-Stage Renal Disease Beneficiaries: Medical Necessity,
 August 1994 (OEI-03-90-02130) and Ambulance Services for Medicare End-Stage Renal Disease
 Beneficiaries: Payment Practices, March 1994 (OEI-03-90-02131).
     5
          , Medicare Ambulance Payments, November 1997 (OEI-05-95-00300).
     6
          , State Ambulance Policies and Services, February 1998 (OEI-09-95-00410).

Medicare Ambulance Services--Medical Necessity      6                                     OEI-09-95-00412
METHODOLOGY

Targeted Sample Selection

            During initial data analysis, we examined a 1 percent sample of all Medicare ambulance
            claims paid under Part B between January and June 1996. We reviewed combined hospital,
            nursing home, and outpatient data for each beneficiary. We then:

             <	     divided the 1 percent sample into groups based on where the ambulance supplier
                    transported the patient and when the service occurred,

             <	     reviewed some claims within each group for (a) consistency of the expected
                    association between the transport and the explanatory claims and (b) correct
                    coding, and

             <      adjusted the placement of claims within each group, if necessary.

            The following table shows the breakdown of the 1 percent sample of Medicare ambulance
            claims for January through June 1996. The groups show the association between the
            transport and the patient outcome. The percents may not total 100.0 percent due to
            rounding.

     Grou                                                                   Percent      Allowed
                     Description of Ambulance Service         Frequency
      p                                                                   of Services    Amounts
        1         At beginning of inpatient stay                 16,429       43.8       $ 4,621,716
        2         Included with emergency room visit              9,710       25.9         2,695,118
        3         At end of inpatient stay                        5,545       14.8         1,154,362
        4         At end of skilled nursing stay                   383          1.0           84,403
        5         At end of multiple-day outpatient claim          419          1.1          134,311
        6         Patients with end-stage renal disease           2,666         7.1        1,020,681
        7         Other claims not included above                 2,368         6.3          724,437
                              TOTAL                              37,520      100.0      $ 10,435,028

            After reviewing a sample of claims in each group, we noted that one group (population size
            2,368 claims) was for ambulance transports that did not result in the expected hospital or
            nursing home admissions or emergency room care on the same date of service. We
            selected this group, hereafter called Group 7, for further review. We reviewed both Part A
            and Part B claims for this population. Group 7 claims usually were not associated with
            other significant services on the same date of service that may explain the medical necessity

Medicare Ambulance Services--Medical Necessity            7                                 OEI-09-95-00412
         of the ambulance trip. For the first half of 1996, Medicare reimbursed the 1 percent
         population of suppliers in Group 7 approximately $724,437. If we assume that the last 6
         months mirror the first 6 months, we estimate that Medicare reimbursed suppliers in Group
         7 approximately $149.28 million for calendar year 1996.

Medical Review

         We selected a simple random sample of 30 beneficiaries from Group 7 for medical review.
         We requested copies of ambulance trip reports and documentation submitted with
         ambulance claims. We then collected medical records for other services rendered on the
         same date as the transport, such as physicians’ records and nursing home records. When a
         patient used an ambulance within 1 week before and 1 week after the sampled transport,
         we requested additional records to document further the medical necessity for multiple
         transports.

         Post payment medical review staff at two Medicare carriers completed the medical review.
         We asked the medical reviewers to assess whether (1) the transport and associated services
         were medically necessary and (2) the level of service was appropriate to the patient’s
         condition. We originally intended to use the 30 cases as a medical probe sample. After
         completion of the medical review and analysis, we determined that we did not need a larger
         sample because the results of the 30-case sample were statistically valid.

         We used the results to:

          <        determine the percent of medically unnecessary ambulance services,7

          <	       calculate the overpayment for medically unnecessary services in the sampled Group
                   7, and

          <	       estimate the potential savings for all claims in Group 7 for calendar year 1996,
                   assuming the last 6 months mirror the first 6 months of the year.

Interviews with Ambulance Suppliers

         We interviewed ambulance suppliers whose medical records were included in the simple
         random sample. Respondents were national, municipal, and small family-owned suppliers.
         Using a structured discussion guide, we obtained data on their revenue mix of emergency,
         nonemergency, advanced life support, and basic life support services. Suppliers described
         how they document medical necessity on ambulance trip reports and Medicare claims.

         This report is part of a series on Medicare ambulance services prepared by the Office of


     7
    See appendix A for the point estimate and confidence intervals for the proportion of medically
 unnecessary services.

Medicare Ambulance Services--Medical Necessity       8                                        OEI-09-95-00412
         Inspector General.




Medicare Ambulance Services--Medical Necessity   9   OEI-09-95-00412
                                                 FINDINGS

         The following findings relate to the 6.3 percent of ambulance services in Group 7 only.


Two-thirds of ambulance services in Group 7 were not
medically necessary
Most cases did not meet Medicare’s criteria for medical necessity

         In 20 of the 30 sampled cases, transportation by ambulance was unnecessary because other
         means of transportation would not have endangered the patient’s health. The 20 cases did
         not meet a major criterion for Medicare payment. Other medical records, especially from
         nursing homes and hospital outpatient departments, often disputed the patient’s bedridden
         status that was claimed in the ambulance report. The table on the following page shows
         the sample’s breakdown by service status (emergency or nonemergency) and level of
         service (basic or advanced life support).8




     8
     Basic life support services are rendered by basic and intermediate emergency medical technicians,
 while the more intensive advanced life support services generally are rendered by paramedic emergency
 medical technicians. Though some suppliers may use different vehicles, the more important distinction
 between the levels of service is the personnel who staff the ambulance.

Medicare Ambulance Services--Medical Necessity      10                                      OEI-09-95-00412
                                                                    Medically Necessary?

         Service Status                                      Yes                            No
       and Level of Service
                                                   Cases           Percent        Cases          Percent
                                                 in Sample         of Cases     in Sample        of Cases

                          Basic
                                                    3               10.0            2              6.7
                      Life Support
 Emergency
                       Advanced
                                                    4               13.3            4             13.3
                      Life Support

                          Basic
                                                    2                6.7           12             40.0
                      Life Support
    Non-
  emergency            Advanced
                                                    1                3.3            2              6.7
                      Life Support

                 Total                              10              33.3           20             66.7

         We recognize that the 30-case sample is small, but with such a high percentage of
         medically unnecessary services, the sample size is sufficient to show that more than half of
         the services in this group are medically unnecessary at the 95 percent confidence level.
         (Refer to appendix A for details.)

         The 10 medically necessary cases were billed at the appropriate level of service. Medical
         reviewers noted that the emergency advanced life support cases involved unconscious and
         unresponsive patients or patients with chest pain. Services, such as oxygen and
         intravenous medications, were appropriate to the patients’ conditions and well-documented
         in the ambulance reports. Though the medical necessity was questionable for one case, the
         patient’s condition was severe enough for hospital admission within 1 week.

Most unnecessary transports were for nonemergency services

         Though medical reviewers found medically unnecessary cases in each service status and
         level of service, about 70 percent were for nonemergency services. For example:

           <	      a patient was sitting unaided in a chair the day of and the day after the ambulance
                   transport;

           <	      another patient was sitting in a wheelchair for a long period of time before the
                   transport, and she refused to be assisted back to bed once the ambulance arrived;

           <       guerney transport would have been appropriate for two patients;

Medicare Ambulance Services--Medical Necessity               11                                  OEI-09-95-00412
           <	      a patient called for an ambulance himself because he wanted an injection to control
                   his trembling after drinking alcohol for 12 hours;

           <	      one patient was transported to the doctor’s office for a follow-up appointment and
                   then back to the nursing facility (a nonapproved Medicare transport); and

           <	      a pleasant and cooperative 92-year-old patient was ambulatory with a walker and
                   minimal assistance from ambulance staff.

         Interviewed suppliers reported that they provide more nonemergency than emergency
         transports. They report that 60 to 93 percent of their transports are nonemergency while 7
         to 40 percent are emergency transports. They described that, aside from inter-facility
         transfers, their nonemergency transports include standby for special events such as high
         school sporting events, community fairs, holiday celebrations with fireworks, and music
         concerts. They also provide emergency transportation as backup for their community’s
         primary 9-1-1 supplier.

Suppliers claim that many medically unnecessary transports stem from lack of
adequate information prior to pickup

         Some ambulance suppliers expressed frustration with the lack of complete and valid
         medical data on incoming calls, especially for nonemergency transports. Ambulance staff
         often arrive and find that some patients, particularly in nursing homes, do not meet
         Medicare’s criteria for ambulance transportation. Some nonemergency ambulance
         transports are completed for the convenience of the nursing home staff, especially for
         difficult patients. For example, one patient was ambulatory with assistance from a nursing
         aide or a wheelchair. However, the staff called an ambulance because the patient was
         noncommunicative (which was a normal situation for this patient) and exhibited obsessive-
         compulsive tendencies.

         Suppliers often will transport patients with questionable medical necessity due to local
         medical standards and potential liability. They prefer to err on the side of being overly
         cautious rather than denying transport. One supplier commented, “We make a lot of runs
         to take blood pressure and put patients back in their beds who have fallen out. You never
         know when something will be serious.”

Medicare allows at least $104 million each year for medically
unnecessary Group 7 ambulance services
         Medicare allowed approximately $9,479 for the 30-case sample, of which $6,606 (or
         70 percent) was for medically unnecessary ambulance services. Applying the same 70
         percent rate to all Medicare ambulance services for the first 6 months of 1996, Medicare
         allowed approximately $52.1 million for the medically unnecessary services in Group 7. If,
         as we believe, the last 6 months of claims in Group 7 mirror the first 6 months of claims,

Medicare Ambulance Services--Medical Necessity      12                                    OEI-09-95-00412
         then we estimate that Medicare allows as much as $104 million each year for medically
         unnecessary ambulance services.9 (See appendix B for the explanation of the cost estimate
         for the allowed amounts of medically unnecessary services in Group 7.)




     9
    This is a non-statistical estimate which multiplies the full-year 1996 Medicare allowance for
 Group 7 of $149.28 million by the proportion of medically unnecessary services which is 0.7.

Medicare Ambulance Services--Medical Necessity      13                                        OEI-09-95-00412
                               RECOMMENDATION


The HCFA should develop a prepayment edit to verify the
medical necessity of ambulance claims that are not
associated with hospital or nursing home admissions or
emergency room care

         The OIG recommends that HCFA screen incoming ambulance claims by matching them
         with hospital, nursing facility, emergency room, and physician claims. This could be
         accomplished by means of a prepayment edit in the Common Working File database. We
         expect that 90 percent of ambulance claims would pass through this screen successfully and
         would continue toward payment. Most of the remaining claims would consist of the Group
         7 claims that we described in this report. Carriers would conduct a manual review of the
         remaining claims to determine whether they should be paid. These claims also could be
         analyzed for further program vulnerabilities such as fraud or abuse by individual ambulance
         suppliers.

         The OIG is aware that HCFA plans to work with the ambulance industry and other affected
         parties to establish a negotiated fee schedule effective January 1, 2000. This
         recommendation would provide a solution for one group of ambulance services until HCFA
         and the industry can better address issues of medical necessity and consistent definitions.

AGENCY COMMENTS

         We received comments on the draft report from HCFA. The HCFA concurred with the
         need for medical review of ambulance claims that are not associated with hospital or
         nursing home admissions or emergency room care. However, due to HCFA’s efforts to
         ensure that Medicare payment systems are renovated before January 1, 2000, the agency
         cannot divert resources to implement a prepayment edit prior to the implementation of
         ambulance payment policies mandated by The Balanced Budget Act of 1997. In the
         interim, HCFA will ask its Medicare carriers to review ambulance data and decide whether
         edits accompanied by local medical review policies or focused medical review of potential
         aberrant suppliers are appropriate.

         The full text of HCFA’s comments appears in appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

         The Office of Inspector General fully understands that HCFA is undertaking a massive


Medicare Ambulance Services--Medical Necessity   14                                    OEI-09-95-00412
         effort to ensure that all health care payment systems are fully and correctly operational
         before January 1, 2000. We suggest that HCFA take whatever action it can now consistent
         with available resources and also include the issue identified in this report on their agenda
         during negotiations on the ambulance fee schedule.

         We also made changes based on HCFA’s technical comments.




Medicare Ambulance Services--Medical Necessity    15                                     OEI-09-95-00412
                                                                                   APPENDIX A




                Proportion of Medically Unnecessary Services


         To calculate the proportion of services that were medically unnecessary, we simply divided
         the number of services in our sample (30 services) by the number that the medical
         reviewers determined were unnecessary (20 services). The resulting estimate and 95
         percent confidence interval are displayed below.

                                                  95 percent confidence interval
             Point estimate
                                              Lower                           Upper
                   0.67                        0.50                            0.84




Ambulances--Medical Necessity                                                          OEI-09-95-00412
                                                 16
                                                                                          APPENDIX B


                     Cost Estimate for Allowed Amounts
                of Medically Unnecessary Services in Group 7

          In this report, we used the more conservative of two methods for calculating the amount
          that Medicare allowed for medically unnecessary services in our target population. These
          methods, which are described in more detail below, were (1) projection of the mean and
          (2) ratio estimation. Both methods yielded approximately the same estimate. We used the
          ratio estimate method in this report because it represented the more conservative (smaller)
          allowed amount. From this ratio estimate, we then calculated a nonstatistical estimate for
          all twelve months of 1996.

Projection of the Mean

          For this method, we multiplied the sample mean medically unnecessary amount ($220 per
          service) by the number of services in our target population (236,800 services)10 to estimate
          the amount that Medicare paid for medically unnecessary services provided to our target
          population during January through June 1996. The resulting estimate and 95 percent
          confidence interval are displayed below.

                                                   95 percent confidence interval
            Point estimate
                                              Lower                               Upper
             $52.1 million                $36.5 million                        $67.8 million

Ratio Estimation

          For this method, we calculated the ratio of (1) the medically unnecessary allowed amount
          for January through June 1996 ($52.1 million, as calculated above) to (2) the total allowed
          amount for the same time period ($74.8 million, as projected from our sample). The
          resulting ratio and 95 percent confidence interval are displayed on the next page.




     10
      For the calculations in this appendix, we treated 1 percent-sample amounts, multiplied by 100, as if
 they represented population amounts. Because the one-percent sample was so large, this approximation
 would not have changed the 95 percent confidence intervals that we report in this appendix.


Ambulances--Medical Necessity                                                                  OEI-09-95-00412
                                                     17
                                                                                          APPENDIX B


                                                 95 percent confidence interval
            Point Estimate
                                            Lower                               Upper
                  0.697                    0.5213                              0.8725

          We then multiplied this ratio by $72.44 million, which represents the actual allowed amount
          for the population that we selected our sample from.11 The table below shows the resulting
          estimate and 95 percent confidence interval.

                                                   95 percent confidence interval
            Point Estimate
                                              Lower                               Upper
             $50.5 million                $37.8 million                       $63.2 million

          We then calculated a nonstatistical estimate for the amount that Medicare allowed for
          medically unnecessary services in our target population for all twelve months of 1996. We
          multiplied the ratio calculated earlier (0.697) by the amount that Medicare allowed for our
          target population during all twelve months of 1996 ($149.28 million) to arrive at an
          estimated $104.0 million for medically unnecessary services.




     11
      The $74.8 million is a projection from our sample, while the $72.44 million is the actual amount for
 the population from which that the sample was selected.


Ambulances--Medical Necessity                                                                  OEI-09-95-00412
                                                     18
                                                                                 APPENDIX C



                                   Agency Comments

         The full text of comments received from the Health Care Financing Administration follows.




Ambulances--Medical Necessity                                                         OEI-09-95-00412
                                                19
                                     APPENDIX C




Ambulances--Medical Necessity           OEI-09-95-00412
                                20
                                     APPENDIX C




Ambulances--Medical Necessity           OEI-09-95-00412
                                21
